Appendix A

United States v. Hansmeier, 988 F.3d 428 (2021)

988 F.3d 428
United States Court of Appeals, Eighth Circuit.
UNITED STATES of America, Plaintiff - Appellee
v.
Paul R. HANSMEIER, Defendant - Appellant

West Headnotes (20)
[1]

Court's analysis of a defendant's motion to
dismiss an indictment for failure to state an
offense is limited to what is contained in the
indictment. Fed. R. Crim. P. 12(b)(3)(B).

No. 19-2386
|
Submitted: October 23, 2020
|
Filed: February 10, 2021
Synopsis
Background: Defendant entered conditional guilty plea to
conspiracy to commit mail and wire fraud and conspiracy
to commit money laundering after the United States
District Court for the District of Minnesota, Kate M.
Menendez, United States Magistrate Judge, 2017 WL
8947193, recommended that defendant's motion to dismiss
indictment for those and other crimes be denied, and Joan N.
Ericksen, Senior District Judge, 2017 WL 3971874, adopted
report and recommendation. Defendant appealed.

[2]

[2] plea agreement did not waive right to challenge
application of Mandatory Victims Restitution Act (MVRA);
and
[3] evidence supported restitution amount of $1,541,527.37.
Affirmed.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.

Criminal Law

Review De Novo

Court of Appeals reviews de novo a defendant's
motion to dismiss an indictment for failure to
state an offense. Fed. R. Crim. P. 12(b)(3)(B).

[3]

Criminal Law

Grand jury and indictment

Criminal Law

Indictment or information

In de novo review of a defendant's motion
to dismiss an indictment for failure to state
an offense, the Court of Appeals accepts the
allegations stated in the indictment as true and
asks whether they can form the basis of the
charged offense. Fed. R. Crim. P. 12(b)(3)(B).

Holdings: The Court of Appeals, Kelly, Circuit Judge, held
that:
[1] indictment sufficiently alleged that defendant engaged in
fraudulent schemes, as required for offenses of mail and wire
fraud;

Indictments and Charging
Instruments
Matters appearing on face of
charging instrument

[4]

Finance, Banking, and Credit
and information
Postal Service

Indictment

Use of Mails to Defraud

Telecommunications
information

Indictment and

When considering a motion to dismiss an
indictment based on failure to state an offense
under the bank, mail, or wire fraud statutes, for
which an indictment is statutorily required to
specify facts with such reasonable particularity
as will apprise the defendant, with reasonable
certainty, of the nature of the accusation and as
will enable the court to say that the facts stated
are sufficient in law to support a conviction,
the question of whether the facts alleged in an
indictment adequately state an offense turns on

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 1 1

United States v. Hansmeier, 988 F.3d 428 (2021)

the elements of that offense.
1341,

[5]

1343; Fed. R. Crim. P. 12(b)(3)(B).

Postal Service
in general

Nature of scheme or

To prove the existence of a fraudulent scheme,
as required under mail and wire fraud statutes,
the government must establish: (1) there was a
deliberate plan of action or course of conduct to
hide or misrepresent information; (2) the hidden
or misrepresented information was material; and
(3) the purpose was to get someone else to act on

[6]

18 U.S.C.A. §§ 1341,

Postal Service
Representations

conviction for mail and wire fraud.

[9]

Postal Service
in general

Nature of scheme or device

involve affirmative lies.

Nature of scheme or

18 U.S.C.A. §§ 1341,

1343.

Postal Service
in general

18 U.S.C.A. §§ 1341,

1343.

18 U.S.C.A. §§ 1341,

A scheme to defraud required for liability under
the mail and wire fraud statutes need not

[8]

the ultimate victims.

[10]

Telecommunications
device in general

Nature of scheme or

Though
fraud
necessarily
involves
misrepresentations made with the object of
obtaining money or property from victims, it is
not the case that the victims targeted must be
the direct recipients of the materially deceptive
statement or concealment for conviction for mail
and wire fraud, but rather the misrepresentations
may be made to third parties, where the third
parties are used to further the scheme to defraud

False pretenses or

1343.

[7]

Nature of scheme or device

Telecommunications
device in general

1343.

For criminal liability to attach under the mail
and wire fraud statutes, a scheme to defraud
must consist of “material misrepresentations”:
misrepresentations that have a natural tendency
to influence, or are capable of influencing, the
decision of the decisionmaking body to which
they are addressed.

Postal Service
in general

18

1343.

U.S.C.A. §§ 1341,

False Pretenses or

Telecommunications
representations

Nature of scheme or

While nondisclosure of a relevant fact,
characterized by mere silence, is not enough
for fraud, “active concealment”—deceptive acts
or contrivances intended to hide information,
mislead, avoid suspicion, or prevent further
inquiry into a material matter—can form the
basis of a fraudulent scheme required to support

Nature of scheme or device

Telecommunications
device in general

it.

Telecommunications
device in general

18 U.S.C.A. §§

Nature of scheme or device

Postal Service
general

Scheme or artifice in

Telecommunications
information

Indictment and

Indictment sufficiently alleged that defendant
and associate engaged in scheme to defraud,
as element of offenses of mail and wire
fraud; indictment alleged that defendant and
associate, who were attorneys, brought copyright
infringement lawsuits and requested discovery
to seek identities of alleged copyright infringers,
without disclosing that they directed agents to
make copyrighted works available on websites
known for illegal downloading, or that “clients”
were companies defendant and associate set up,
that such information would have been material

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 2 2

United States v. Hansmeier, 988 F.3d 428 (2021)

to courts, which would have treated subpoena
requests with greater skepticism, that purpose
was to induce courts to act by granting subpoena
requests, and that ultimate object of requests
was to obtain settlement payments from pool
of alleged infringers.

Postal Service
general

1343, 1349,

[14]

Indictment and

Indictment sufficiently alleged that defendant
and associate engaged in fraudulent scheme, as
element of offenses of mail and wire fraud, where
it alleged that defendant and associate, who
were attorneys, filed lawsuits falsely accusing
“ruse defendants” of hacking into their clients'
computer systems, and, through those false
accusations, convinced courts to provide them
with requested discovery to obtain identifying
information for alleged copyright infringers,
and then deployed that information to obtain
settlement payments from the alleged infringers.
18 U.S.C.A. §§ 1341,

[12]

3663A.

Sentencing

infringement suits.

18 U.S.C.A. §§ 1341,

1343, 1349.

1343.

Indictments and Charging
Instruments
Defenses

Criminal Law

Clear error review, not de novo review,
applied to district court's decision to award
$1,541,527.37 in restitution under Mandatory
Victims Restitution Act (MVRA), in prosecution
for conspiracy to commit mail and wire fraud
arising from fraudulent scheme by defendant and
associate, who were attorneys, to bring copyright
infringement lawsuits to extract settlements from
alleged infringers for purposes of personal gain,
since district court's restitution decision did
not involve legal interpretation of MVRA, but
rather primary question before the district court
was factual, namely, how to determine whether
payments sent to defendant and associate
were from fraud victims or from persons
paying settlements in allegedly “legitimate”

Scheme or artifice in

Telecommunications
information

18 U.S.C.A. §§ 1341,

to” a certain amount.

18 U.S.C.A. §§ 1341,

1343.

[11]

restitution, not that he would pay any restitution
ordered by the district court or restitution “up

[15]

Criminal Law

Restitution

Criminal Law

Sentencing

Court of Appeals reviews the district court's
decision to award restitution under the
Mandatory Victims Restitution Act (MVRA) for
an abuse of discretion and the district court's
finding as to the amount of loss for clear error.

A defendant's possible defenses are not relevant
to the court's consideration of whether an
indictment itself properly stated the basis for the
charged offenses. Fed. R. Crim. P. 12(b)(3)(B).

18 U.S.C.A. § 3663A.
[13]

Criminal Law

Issues considered

Defendant did not waive any right to challenge
application of Mandatory Victims Restitution
Act (MVRA) in plea agreement, which provided
that defendant “understands and agrees that
the [MVRA] applies,” and that the court “will
order him to make restitution for the entire loss
caused by his fraud scheme,” in prosecution
for conspiracy to commit mail and wire fraud;
defendant simply agreed that MVRA would
apply and that the court would order him to waive

[16]

Criminal Law

Review De Novo

De novo review applies to the extent the
district court interpreted the Mandatory Victims
Restitution Act (MVRA) to determine its
obligations in awarding restitution.
U.S.C.A. § 3663A.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

18

App. 3 3

United States v. Hansmeier, 988 F.3d 428 (2021)

[17]

Sentencing and Punishment

Actual loss

Sentencing and Punishment
proof

Burden of

Restitution under the Mandatory Victims
Restitution Act (MVRA) must be based on the
amount of loss actually caused by the defendant's
offense, and the burden is on the government
to prove that the restitution awarded does not
exceed the actual, provable loss caused by the
offense.

[18]

18 U.S.C.A. §§ 3663A(a),

Sentencing and Punishment
pattern, or conspiracy

(c).

Scheme,

[19]

18 U.S.C.A. § 3663A(a),

(c).

Scheme,

Sentencing and Punishment

Actual loss

Actual loss requirement under the Mandatory
Victims Restitution Act (MVRA), that restitution
must be based on the amount of loss actually
caused by the defendant's offense, means
that courts in fraud cases must be wary of
over-inclusiveness—and particularly of setting
payment amounts that encompass both losses
caused by the fraud at issue and legitimate
payments separate from the fraudulent scheme.

[20]

Sentencing and Punishment
value

1343, 1349,

18

3663A(a),

(c).

Sentencing and Punishment
pattern, or conspiracy

18 U.S.C.A. § 3663A(a),

fraudulent proceeds from their lawsuits.
U.S.C.A. §§ 1341,

In fraud cases, restitution may be ordered under
the Mandatory Victims Restitution Act (MVRA)
for criminal conduct that is part of a broad
scheme to defraud, without regard to whether the
defendant is convicted for each fraudulent act in
the scheme.

settlements from alleged infringers for personal
gain, in prosecution for conspiracy to commit
mail and wire fraud and other crime, though
defendant asserted amount included payments
from “legitimate” infringement lawsuits; FBI
special agent examined payments and calculated
restitution figure, agent excluded any payments
that could not be tied to specific person,
suggesting estimate might be under-inclusive,
and defendant himself acknowledged that he
and associate received more than $3,000,000 in

(c).

Amount,

Evidence supported restitution amount of
$1,541,527.37 under the Mandatory Victims
Restitution Act (MVRA) based on actual loss
to victims of fraudulent scheme by defendant
and associate, who were attorneys, to bring
copyright infringement lawsuits to extract

*432 Appeal from United States District Court for the
District of Minnesota
Attorneys and Law Firms
Counsel who presented argument on behalf of the appellant
was Andrew H. Mohring, AFPD, of Minneapolis, MN. The
following attorney(s) appeared on the appellant brief; Eric
Riensche, AFPD, of Minneapolis, MN.
Counsel who presented argument on behalf of the appellee
was David J. MacLaughlin, AUSA, of Minneapolis, MN. The
following attorney(s) appeared on the appellee brief; Lisa D.
Kirkpatrick, AUSA, of Saint Paul, MN.
Before BENTON, SHEPHERD, and KELLY, Circuit Judges.
Opinion
KELLY, Circuit Judge
Paul Hansmeier was charged in an 18-count indictment
18 U.S.C. §§ 1341,
1343;
with mail and wire fraud,
conspiracy to commit mail and wire fraud, 18 U.S.C. § 1349;
conspiracy to commit money laundering,
18 U.S.C. §
1956(h); and conspiracy to commit and suborn perjury, 18
U.S.C. § 371. After the district court 1 denied his motion to
dismiss the 17 fraud and money laundering counts, Hansmeier
pleaded guilty to one count of conspiracy to commit mail and
wire fraud and one count of conspiracy to commit money

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 4 4

United States v. Hansmeier, 988 F.3d 428 (2021)

movies. Defendants then filed copyright infringement
lawsuits against these anonymous individuals, sometimes
referred to as “John Does,” and sought authority from the
court—often referred to as “early discovery”—to subpoena
internet service providers for subscriber information
associated with the IP Addresses.

laundering. He was sentenced to 168 months’ imprisonment
and ordered to pay restitution in the amount of $1,541,527.37.
1

The Honorable Joan N. Ericksen, United States
District Judge for the District of Minnesota.

Hansmeier presents two arguments on appeal. First, he claims
that the district court erred in denying his motion to dismiss.
Second, he contends that the district court's restitution award
improperly included more than just the losses caused by his
offense. We affirm.

After receiving the subscriber information, defendants ...
made phone calls and sent letters to the subscribers
associated with targeted IP Addresses in which
they threatened overwhelming financial penalties—the
copyright statute permits plaintiffs to recover damages of
up to $150,000 per infringement—and public disclosure
unless the purported infringers agreed to pay a settlement
of approximately $4,000. Many of the individuals who
received defendants’ letters and phone calls agreed to
pay the settlement rather than incur the expense of
defending the lawsuit—which would undoubtedly exceed
the settlement amount—or risk being publicly shamed for
allegedly downloading pornographic movies.

I.
A. 2
2

Though both Hansmeier and the government
have offered additional factual context in their
presentations before this court, our analysis of
Hansmeier's motion to dismiss is limited to what
United States v.
is contained in the indictment.
Steffen, 687 F.3d 1104, 1107 n.2 (8th Cir. 2012)
(“In reviewing the sufficiency of an indictment,
we accept the government's factual allegations as
true, without reference to allegations outside the
indicting document.” (quoting United States v.
Farm & Home Sav. Ass'n, 932 F.2d 1256, 1259
n.3 (8th Cir. 1991))). Accordingly, the following
description of Hansmeier's conduct is drawn from
the indictment that forms the basis of our review
and takes the facts alleged in the indictment as
true. Cf. id. (drawing “the facts set forth in [the]
opinion ... from the indictment”).

[1] Paul Hansmeier was an attorney licensed to practice
law in Minnesota. Along with his business partner John
Steele, who was charged in the same indictment, 3 Hansmeier
operated the law firm Steele Hansmeier PLLC. Beginning
around September 2010, the firm started representing
organizations and individuals that owned the copyrights to
certain pornographic movies. As part of their representation,
*433 Hansmeier and Steele pursued the following strategy,
as described in the indictment:
Defendants and their agents monitored file-sharing
websites and obtained IP Addresses of individuals who
downloaded or attempted to download their clients’

3

Steele pleaded guilty to both conspiracy counts in
March 2017 and was sentenced to a prison term of
60 months.

The indictment alleges that Hansmeier and Steele started
by monitoring file-sharing websites to look for potential
infringers. Beginning in April 2011, however, the two
men began directing their agents “to upload their clients’
pornographic movies to BitTorrent file-sharing websites,
including a website named the Pirate Bay, in order to
entice people to download the movies and make it easier
to catch those who attempted to obtain the movies.” Once
Hansmeier and Steele identified potential infringers who
downloaded the movies, they took the same steps of seeking
early discovery, sending settlement demands, and receiving
payments from alleged infringers. Hansmeier and Steele told
neither the courts in which they sought discovery nor the
alleged infringers that they were responsible for making the
films available on the file-sharing sites.
Several months later, Hansmeier and Steele again modified
their strategy. First, in November 2011, they “caused Prenda
Law to be created.” Though the firm was nominally owned
by their associate, the two men exerted de facto control over
it and used the firm to pursue their copyright infringement
litigation. The indictment alleges that Hansmeier and Steele
“on multiple occasions falsely denied to various courts any
direct involvement with or control over Prenda Law.” Next,
they created the organizations AF Holdings and Ingenuity

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 5 5

United States v. Hansmeier, 988 F.3d 428 (2021)

13. Hansmeier and Steele represented to the courts that these
organizations were owned and controlled by other individuals
and used the names of an acquaintance and of a paralegal they
employed. But in reality, Hansmeier and Steele controlled
both. Under their direction, these organizations obtained
copyrights to a number of pornographic films and then served
as Hansmeier and Steele's clients as the two men pursued
their copyright litigation. Unknown to both the courts and
the alleged infringers, Hansmeier and Steele were thus the
direct beneficiaries of all settlement payments made out to AF
Holdings and Ingenuity 13.

new organizations: Guava, Livewire Holdings, and LW
Systems. As with AF Holdings and Ingenuity 13, though
Hansmeier and Steele represented that these companies
were owned by other individuals, Hansmeier and Steele
actually controlled each company. Under their new strategy,
Hansmeier and Steele filed lawsuits alleging that certain John
Does had hacked these companies’ computer systems. This,
the indictment claims, was a lie: while the John Does in
question had apparently downloaded the pornographic films,
they had not hacked into any computer systems. Indeed, the
companies had no computer systems to hack.

In May 2012, Hansmeier and Steele began creating
pornographic films themselves. Contracting with adult film
actresses, Hansmeier and Steele produced multiple short films
and transferred the copyrights to Ingenuity 13. They did not
*434 distribute the movies commercially, but instead posted
them exclusively on file-sharing websites and monitored the
downloads. Using these entities and films, Hansmeier and
Steele continued to pursue their settlement-focused litigation
strategy. In doing so, they failed to disclose their involvement
to either the courts or the alleged infringers.

In reality, according to the indictment, Hansmeier and Steele
brought these lawsuits in a renewed attempt to learn the
identities of alleged infringers and to send them settlement
demands. In this effort, Hansmeier and Steele recruited
“ruse defendants.” These defendants were people Hansmeier
and Steele had caught downloading movies for which
they (or their purported “clients”) possessed copyrights. In
exchange for Hansmeier and Steele waiving their copyright
claims against them, the ruse defendants agreed to be
sued for hacking the companies’ computer systems. This
then allowed the two men to seek discovery about the
ruse defendants’ alleged co-conspirators in the computer
hacking. In reality, these “co-conspirators” were just other
downloaders of copyrighted movies whose IP addresses
Hansmeier and Steele identified through the file sharing sites.
Once Hansmeier and Steele gained subpoena authority for
the supposed co-conspirators’ information, they sent them the
same copyright-based settlement demands described above.

The indictment alleges that, in order to carry out their
litigation strategy, Hansmeier and Steele deceived both the
courts in which they sought discovery and the alleged
infringers they sued. Specifically, the indictment accuses
Hansmeier and Steele of deliberately concealing from the
courts “their role in distributing the movies, as well as their
significant personal stake in the outcome of the litigation.”
This concealment, the indictment alleges, was done with
the purpose of gaining access to downloaders’ identifying
information, in order to “garner quick settlements from
individuals who were unaware of the defendants’ role in
uploading the movie, and often either too embarrassed or
could not afford to defend themselves.” The indictment also
characterizes the threatened lawsuits as legally baseless,
suggesting that Hansmeier and Steele had provided legal
authorization to download the movies when they caused
them to be uploaded to file sharing sites. Accordingly, the
indictment claims, any representations Hansmeier and Steele
made to the courts or the alleged infringers that they and their
clients had legitimate copyright infringement claims or had
suffered damages from that infringement were also false.
Around October 2012, “after courts had begun limiting the
discovery [they] could obtain through copyright infringement
suits,” Hansmeier and Steele developed a new way to seek
copyright settlements. This involved the creation of three

Eventually, courts grew suspicious of Hansmeier and Steele's
litigation techniques and started denying their subpoena
requests, dismissing their lawsuits, imposing sanctions, and
notifying state attorney *435 disciplinary bodies and other
courts. The indictment includes language from a federal
district court order imposing sanctions against both men,
in which the court states that the two “have demonstrated
their willingness to deceive not just this Court, but other
courts where they have appeared” and that their “deception
was calculated so that the Court would grant [their] earlydiscovery requests, thereby allowing [them] to identify
[alleged copyright infringers] and exact settlement proceeds
from them.” The responses from the courts effectively ended
Hansmeier and Steele's operation. But between 2011 and
2013, before they faced this increased scrutiny, Hansmeier,
Steele, and their entities received more than $6 million
in copyright settlement payments, half of which went to
Hansmeier and Steele themselves.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 6 6

United States v. Hansmeier, 988 F.3d 428 (2021)

B.
On December 14, 2016, a federal grand jury charged
Hansmeier and Steele with conspiracy to commit wire and
mail fraud; multiple instances of mail and wire fraud between
December 2011 and April 2013; conspiracy to commit money
laundering; and conspiracy to commit and suborn perjury.
Hansmeier moved to dismiss all but the perjury count, arguing
that the facts alleged did not constitute criminal fraud. See
Fed. R. Crim. P. 12(b)(3)(B) (authorizing pretrial challenges
to indictments that “fail[ ] to state an offense”). 4 The
magistrate judge recommended the motion be denied, and the
district court adopted the recommendation.
4

Because the theory of money laundering charged
was premised on Hansmeier and Steele committing
mail and wire fraud, this count was included in the
motion to dismiss.

Following the district court's order, Hansmeier entered into
a conditional plea agreement with the government, pleading
guilty to one count of conspiracy to commit mail and
wire fraud and one count of conspiracy to commit money
laundering, reserving the right to appeal the denial of his
motion to dismiss.
At sentencing, the district court heard evidence about
restitution. In support of its proposed restitution amount,
the government called Jared Kary, a special agent with the
FBI. Agent Kary described Hansmeier and Steele's settlement
strategy, explaining that the settlements their targets agreed
to pay typically “ranged between $2,500 and $3,400,” though
were sometimes lower. Based on his review of Hansmeier
and Steele's financial documents, Agent Kary estimated that,
between 2010 and 2013, the alleged infringers Hansmeier
and Steele targeted paid over $6 million total in settlements.
Agent Kary then summarized a spreadsheet the FBI created
to estimate the proper restitution amount. The spreadsheet
did not include all of the settlement money that came in
over this time period. Rather, it was limited to payments
made after April 2011, which is when there was evidence
that Hansmeier and Steele posted to file-sharing websites a
movie to which they held the copyright—in other words,
when, under the government's theory, their fraud scheme
began—and to payments that he could link to specific victims.
Based on these parameters, he calculated a restitution figure
of $1,541,527.37.

Hansmeier objected to this calculation on the basis that the
FBI's spreadsheet did not distinguish between settlement
payments that came from “legitimate lawsuits” and those that
came from fraudulent ones. The court found the defense's
arguments unconvincing, noting “there does not appear from
the testimony and from the facts admitted at the plea ... any
more than potentially a negligible amount of what could be
reasonably considered *436 money coming from a source
other than the overall fraudulent scheme. And so this is a
pretty conservative restitution amount.” The court ultimately
accepted the government's evidence and imposed restitution
in the amount of $1,541,527.37.
Hansmeier now appeals.

II.
[2] [3] [4] We review de novo a defendant's motion to
dismiss an indictment for failure to state an offense. See
United States v. Steffen, 687 F.3d 1104, 1109 (8th Cir.
2012). In doing so, we accept the allegations stated in the
indictment as true, Farm & Home Sav. Ass'n, 932 F.2d at
1259 n.3, and ask whether they can form the basis of the
charged offense. See United States v. Hayes, 574 F.3d 460,
472 (8th Cir. 2009) (“An indictment will ordinarily be held
sufficient unless it is so defective that it cannot be said, by any
reasonable construction, to charge the offense for which the
defendant was convicted.” (quoting United States v. Sewell,
513 F.3d 820, 821 (8th Cir. 2008))). A slightly greater level
of detail is required for the bank, mail, or wire fraud statutes,
for which an indictment must “specify facts ... with such
reasonable particularity as will apprise the defendant, with
reasonable certainty, of the nature of the accusation and as
will enable the court to say that the facts stated are sufficient
in law to support a conviction.”
Steffen, 687 F.3d at 1113
(cleaned up). The question of whether the facts alleged in an
indictment adequately state an offense therefore turns on the
elements of that offense. See
F.3d 584, 587 (8th Cir. 2019).

United States v. Flute, 929

The mail and wire fraud statutes at issue here prohibit the
use of interstate mail or wire facilities to effect “any scheme
or artifice to defraud, or for obtaining money or property by
means of false or fraudulent pretenses, representations, or
promises.”

18 U.S.C. §§ 1341,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1343. As Hansmeier

App. 7 7

United States v. Hansmeier, 988 F.3d 428 (2021)

notes, the term “scheme to defraud” initially may seem
United States v. Britton, 9
slightly amorphous. See, e.g.,
F.3d 708, 709 (8th Cir. 1993) (per curiam) (defining a scheme
to defraud as “a departure from fundamental honesty, moral
uprightness, or fair play and candid dealings in the general
life of the community” (quoting United States v. Goldblatt,
813 F.2d 619, 624 (3d Cir. 1987))). But cases from this circuit
and the Supreme Court have offered more concrete guidance
on what the mail and wire fraud statutes require.

F.3d at 749 (“The gravamen of the offense is not a false
representation to a victim, but the development of a scheme
to defraud.” (emphasis added)). Rather, we have held that
the misrepresentations may be made to third parties, where
the third parties are used to further the scheme to defraud
the ultimate victims. See, e.g.,
United States v. Blumeyer,
114 F.3d 758, 768 (8th Cir. 1997) (recognizing a scheme to
defraud where the defendant made false representations to
a regulatory agency with the goal that the agency's actions
would bolster his “scheme to obtain money or property from
others”).

[5] [6] [7] To prove the existence of a fraudulent scheme,
the government must establish: “(1) there was a deliberate
[10] Hansmeier's indictment identifies two related litigation
plan of action or course of conduct to hide or misrepresent
strategies that Hansmeier and Steele employed between late
information; (2) the hidden or misrepresented information
2011 and 2013 and that form the basis of the government's
was material; and (3) the purpose was to get someone else
fraud allegation. Both meet the elements of a fraudulent
United States v. Luna, 968 F.3d 922, 926
to act on it.”
scheme. In the first, Hansmeier and Steele brought copyright
(8th Cir. 2020) (cleaned up). As this definition indicates,
infringement lawsuits and requested discovery on behalf
for criminal liability to attach, a scheme to defraud must
of their supposed clients seeking the identities of alleged
consist of material misrepresentations: misrepresentations
copyright infringers but did not disclose (1) that they directed
that have “a natural tendency to influence, or [are] capable
agents to make the copyrighted works available on websites
of influencing, the decision of the decisionmaking body to
known for illegal downloading; and (2) that the clients
which [they are] addressed.” United States v. Heppner, 519
were in fact companies that Hansmeier and Steele set up in
F.3d 744, 749 (8th Cir. 2008) (quoting Preston v. United
order to personally profit from anticipated settlements. On
States, 312 F.3d 959, 960 (8th Cir. 2002) (per curiam));
its face, this alleged conduct meets the elements required
see also
Luna, 968 F.3d at 926 (“To defraud someone
requires material, affirmative misrepresentations or active
concealment of material information for the purpose of
inducing action.”). However, a scheme to defraud need not
involve affirmative lies.

for a fraudulent scheme. See
Luna, 968 F.3d at 926.
By posting the movies, Hansmeier and Steele took steps to
ensure that they would have a pool of potential copyright
infringers to target through litigation. And by having separate
companies that they controlled act as their clients, they
obscured their personal and financial involvement in those
[8]
[9] While nondisclosure of a relevant fact, lawsuits. Hansmeier and Steele's choice to conceal from the
“characterized by mere silence,” is *437 not enough for
courts their full involvement in the lawsuits thus constitutes
fraud, active concealment—“deceptive acts or contrivances
a “deliberate plan of action ... to hide or misrepresent
intended to hide information, mislead, avoid suspicion, or
information.”
Id. at 926.
prevent further inquiry into a material matter”—can form
the basis of a fraudulent scheme.

Steffen, 687 F.3d at

1114 (quoting United States v. Colton, 231 F.3d 890, 898–
99 (4th Cir. 2000)); see also United States v. Kidd, 963
F.3d 742, 751 (8th Cir. 2020) (recognizing that “evidence
of active concealment could prove a scheme to defraud”).
Finally, though fraud necessarily involves misrepresentations
made with the “object” of obtaining money or property from
victims,
Kelly v. United States, ––– U.S. ––––, 140 S.
Ct. 1565, 1572, 206 L.Ed.2d 882 (2020), it is not the case
that the victims targeted must be the direct recipients of the
materially deceptive statement or concealment, see Kidd, 963

The information they misrepresented was also material. Had
the courts known that Hansmeier and Steele intentionally
posted the films on websites used for illegal file sharing
or that the two men were in fact the personal beneficiaries
of their “ ‘clients’ ” copyright claims, they would have
treated the subpoena requests with far greater skepticism
—indeed, the indictment alleges that Hansmeier and Steele
faced dismissals of their lawsuits and sanctions when the
extent of their involvement eventually came to light. See
Heppner, 519 F.3d at 749. That Hansmeier and Steele created
multiple organizations under the names of their associates
in order to pursue litigation, rather than naming themselves

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 8 8

United States v. Hansmeier, 988 F.3d 428 (2021)

as the copyright holders, itself suggests that they knew how
relevant the courts would find this information. And the
courts’ skepticism about Hansmeier and Steele's level of
personal involvement and financial interest in the litigation
would have been likely even if, as Hansmeier argues, their
claims did involve actionable *438 copyright infringement.
Luna, 968 F.3d at 927 (holding that, in an insurance
Cf.
fraud case, it did not matter whether some of the claims may
have been independently valid, because “with a fuller picture
of the clinic's practices, insurers would have investigated” and
that “[t]his fact alone shows that the information withheld had
a tendency to influence their actions, even when it had no
effect on whether they ultimately paid”).
Finally, the indictment makes clear that the purpose of
Hansmeier and Steele's concealment was to induce the courts
to act, in the form of granting their subpoena requests. And the
ultimate object of those requests—and the deceptive tactics
leading up to them—was to obtain settlement payments from
a pool of alleged infringers. Putting the different elements
together, the indictment alleges that Hansmeier and Steele (1)
developed and executed a plan that depended on them (2)
deliberately concealing material information from the courts,
(3) with the purpose of convincing those courts to grant
their discovery requests and (4) with the ultimate object of
obtaining settlement payments from alleged infringers they
identified through those discovery requests. This conduct
meets the elements of criminal fraud.
[11] The second litigation strategy utilized by Hansmeier and
Steele, which began in the fall of 2012, shared many features
of the first, including the use of discovery to obtain identifying
information for alleged infringers and the deployment of
that information to then obtain settlement payments. While
the second approach similarly involved misleading courts
by concealing material information in order to subpoena
downloaders’ identifying information, Hansmeier and Steele
also began actively lying to the courts. As the indictment
describes, the two men falsely accused a number of “ruse
defendants” of hacking into their clients’ systems and,
through these false accusations, convinced the courts to
provide them with the requested discovery. Thus, and for the
same reasons outlined above, the indictment's presentation
of Hansmeier and Steele's conduct involving ruse defendants
is sufficient to support fraud charges—the only difference
is that the deception there came in the form of affirmative
misrepresentations.

[12] In sum, the conduct recounted in the indictment
constitutes a “scheme ... for obtaining money or property
by means of false or fraudulent pretenses, representations,
18 U.S.C. §§ 1341,
1343. Taking its
or promises.”
allegations as true, the indictment lays out a sufficient basis
for the government's charge that Hansmeier committed fraud,
and it informs the court and the parties involved of the facts
underlying that charge. This is what is legally required of an
indictment. See
Steffen, 687 F.3d at 1113. In his defense,
Hansmeier was free to dispute the facts, offer alternative
explanations for his conduct, or provide context to any of
the actions alleged. In short, it was Hansmeier's right to
present any lawful defense available to him against the
government's effort to prove his guilt beyond a reasonable
doubt. But Hansmeier's possible defenses are not relevant to
our consideration of whether the indictment itself properly
stated the basis for the charged offenses. 5 Because the *439
facts in the indictment, accepted as true, describe a fraudulent
scheme prohibited by federal law, Hansmeier cannot succeed
in his claim that it is facially insufficient. We affirm the district
court's denial of his motion to dismiss.
5

Disputing this conclusion, Hansmeier invokes
the metaphor of a three-legged stool, arguing
that, because none of the independent “legs,”
viewed on its own, involves him lying to or
concealing information from his ultimate victims,
the theory of fraud laid out in the indictment
fails. Even assuming this characterization of
his conduct is accurate, there is no authority
suggesting that courts should approach fraud
charges in this fragmented manner. Indeed, such an
approach would risk allowing more sophisticated
fraudulent schemes, which may involve multiple,
independently legal acts or falsehoods aimed
at providing the perpetrators with legal or
regulatory authority to pursue their victims, to
go unchecked. Cf. Kidd, 963 F.3d at 747–
50 (insurance fraud orchestrated by a licensed
chiropractor);
Blumeyer, 114 F.3d at 766–68
(fraud committed by defendant who owned several
insurance companies).

III.
Hansmeier also argues that the district court's award
of $1,541,527.37 in restitution violated the Mandatory

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 9 9

United States v. Hansmeier, 988 F.3d 428 (2021)

Victims Restitution Act (MVRA),
18 U.S.C. § 3663A.
Specifically, he claims that the district court erred in relying
on a calculation that included not just losses by victims of the
fraud scheme, but also “legitimate” settlement payments from
the same period (i.e., those paid by people who downloaded
copyright-protected movies posted on file-sharing websites
by people other than Steele and Hansmeier).
[13] The government first responds that Hansmeier waived
any right to challenge the application of the MVRA in the
terms of his plea deal. The agreement specifies:

Defendant understands and agrees
that the Mandatory Restitution Act,
18 U.S.C. § 3663A, applies and
that the Court is required to order
the defendant to pay the maximum
restitution to the victims of his crimes
as provided by law. The defendant
understands and agrees that the Court
will order him to make restitution for
the entire loss caused by his fraud
scheme and that the restitution order
will not be limited to the counts of
conviction.

We do not read this provision as a waiver of Hansmeier's right
to appeal the restitution award. Nor is it a pledge to pay the
“$3 million in fraudulent proceeds” identified elsewhere in
the agreement. Unlike in the cases on which the government
relies, Hansmeier did not agree to pay “any restitution ordered
by the District Court,”
United States v. Lester, 200 F.3d
1179 (8th Cir. 2000), or agree to pay restitution “up to” a
certain amount,
United States v. Bartsh, 985 F.2d 930
(8th Cir. 1993). Here, Hansmeier simply agreed that the
MVRA would apply and that the court would order him
to pay restitution. He did not, in doing so, waive his right
to challenge any perceived error in the ultimate restitution
amount imposed. Cf. United States v. Polukhin, 896 F.3d 848,
852 (8th Cir. 2018) (holding that defendant did not waive her
right to appeal restitution when she made no agreement to pay
whatever the court ordered).

restitution for an abuse of discretion and the district court's
finding as to the amount of loss for clear error.”
States v. Frazier, 651 F.3d 899, 903 (8th Cir. 2011).
6

United
6

Hansmeier argues that the appropriate standard
of review is de novo. However, de novo
review applies only “to the extent the district
court interpreted the [MVRA] to determine its
Frazier,
obligations in awarding restitution.”
651 F.3d at 903. Here, the district court's restitution
decision did not involve a legal interpretation
of the MVRA. Rather, the primary question
before the district court was factual: how to
determine whether payments sent to Hansmeier
and Steele after April 2011 were from fraud
victims or from alleged copyright infringers paying
settlements in “legitimate” lawsuits. The district
court's decision to rely on the calculation provided
by the government is therefore subject to clear error
review.

*440 [17] [18] [19] The MVRA requires that sentencing
courts order restitution in all cases where “an identifiable
victim or victims has suffered a physical injury or pecuniary
loss” “as a result of the commission of an offense.”

18

(c). Restitution “must be based on the
U.S.C. § 3663A(a),
amount of loss actually caused by the defendant's offense,”
and the burden is on the government to “prove that the
restitution awarded does not exceed the actual, provable loss
caused by the offense.” United States v. Fonseca, 790 F.3d
852, 854 (8th Cir. 2015). In fraud cases, restitution “may be
ordered for criminal conduct that is part of a broad scheme to
defraud, without regard to whether the defendant is convicted
for each fraudulent act in the scheme.” United States v.
Farrington, 499 F.3d 854, 860 (8th Cir. 2007) (quoting
United States v. Ross, 279 F.3d 600, 609 (8th Cir. 2002)).
However, the actual loss requirement means that courts must
be wary of over-inclusiveness—and particularly of setting
payment amounts that encompass both losses caused by the
fraud at issue and legitimate payments separate from the

fraudulent scheme. See
Luna, 968 F.3d at 930. But see
United States v. Karie, 976 F.3d 800, 806 (8th Cir. 2020)
(“Where a defendant's dealings are systematically tainted
with fraud, a district court may determine that the total amount
[14]
[15]
[16] Because Hansmeier did not waive the of payments equals the loss amount.” (cleaned up)).
issue, we will “review the district court's decision to award

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 10 10

United States v. Hansmeier, 988 F.3d 428 (2021)

[20] Here, the government met its burden of showing by
a preponderance of the evidence that the $1,541,527.37
loss total was attributable solely to settlement payments
United States v. DeRosier,
from the fraud scheme. See
501 F.3d 888, 896 (8th Cir. 2007) (“The burden is on the
government to prove the amount of restitution based on
a preponderance of the evidence.”). The figure was based
on calculations Agent Kary presented to the court at the
sentencing hearing. In coming to his final loss amount, Agent
Kary included only settlement payments from April 2011
on, when Hansmeier and Steele directed an associate to
upload a movie called Sexual Obsession, which they held
the copyright to and which they used in their fraudulent
lawsuits, to file sharing websites. Agent Kary explained
that Sexual Obsession became the “go-to movie as far as
gaining settlements from individuals.” He said that other
movies were not a “significant” source of profit from that
point on, constituting just “a few [payments] trickling in here
and there.” Considering this information, the district court
characterized potential payments from “legitimate” lawsuits
over this period as making up no “more than potentially
a negligible amount” of the money Hansmeier and Steele
received. Cf. Karie, 976 F.3d at 806.

Agent Kary further attempted to narrow his calculation to
payments from fraud victims by excluding any payments that
came in over this period that he could not tie to a specific
person—suggesting that his estimate might in fact have been
under-inclusive of the total amount Hansmeier and Steele
received from their fraud scheme. Agent Kary also showed
his list of identified victims to Steele, who confirmed that only
one or two names were not those of fraud victims. Finally,
Hansmeier himself acknowledged in his plea agreement that,
between 2011 and 2014, he and Steele “received more than
$3,000,000 in fraudulent proceeds” from their lawsuits.
In light of the information the government presented at
sentencing, the district court did not clearly err in concluding
that the $1,541,527.37 figure was fairly representative of the
actual loss caused by the fraudulent scheme.

*441 IV.
We affirm the judgment of the district court.
All Citations
988 F.3d 428

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 11 11

United States v. Hansmeier, Not Reported in Fed. Supp. (2017)

Appendix B

usual. “An indictment is normally sufficient if its language
2017 WL 3971874
Only the Westlaw citation is currently available.
United States District Court, D. Minnesota.
UNITED STATES of America, Plaintiff,
v.
Paul R. HANSMEIER, Defendant.
Case No. 16cr334 (JNE/KMM) (1)
|
Signed 09/08/2017
Attorneys and Law Firms
Benjamin F. Langner, David J. MacLaughlin, United States
Attorney's Office, Minneapolis, MN, for Plaintiff.
Andrew H. Mohring, Manvir K. Atwal, Office of the Federal
Defender, Minneapolis, MN, for Defendant.

ORDER
JOAN N. ERICKSEN, United States District Judge
*1 The Indictment in this criminal case against Defendant
Paul R. Hansmeier charges him in 18 counts, including
one count of conspiracy to commit mail fraud and wire
fraud, five counts of mail fraud, ten counts of wire fraud,
one count of conspiracy to commit money laundering, and
one count of conspiracy to commit and suborn perjury.
Hansmeier moves pursuant to Federal Rule of Criminal
Procedure 12(b) to dismiss the Indictment in all counts
except the perjury count. Dkt. No. 48; see also Def.’s
Br. 4 n.1, Dkt. No. 49. After holding a hearing on the
motion, in a Report and Recommendation dated July 24,
2017, Dkt. No. 66 (“R&R”), the Honorable Katherine
Menendez, United States Magistrate Judge, recommended
denying Hansmeier’s motion. Hansmeier objected to the
Report and Recommendation. Dkt. No. 73 (“Objs.”). The
Government responded to Hansmeier’s objections. Dkt. No.
75. The Court must determine de novo any part of the Report
and Recommendation that has been properly objected to. D.
Minn. L.R. 72.2(b)(3); see also

28 U.S.C. § 636(b)(1).

First, Hansmeier objects that the Report and
Recommendation’s statement of the relevant standard for
deciding the motion to dismiss was incomplete, because the
indictment must allege facts with more particularity than

tracks the statutory language.”
United States v. Steffen,
687 F.3d 1104, 1113 (8th Cir. 2012) (quoting United States
v. Sewell, 513 F.3d 820, 821 (8th Cir. 2008)). “However,
where an indictment alleges a scheme to defraud under the
bank, mail, or wire fraud statutes,” as in this case, “it must
specify facts ‘not merely in the general words of the statute,
but with such reasonable particularity ... as will ... apprise
[the defendant], with reasonable certainty, of the nature of
the accusation ... and as will enable the court to say that the
facts stated are sufficient in law to support a conviction.”
Id. (quoting
Brown v. United States, 143 F. 60, 62 (8th
Cir. 1906)). In other words, the indictment should “describe
the scheme or artifice to defraud which had been devised,
with such certainty as would clearly inform the defendants
of the nature of the evidence to prove the existence of the
scheme to defraud, with which they would be confronted at
the trial.” Id. (quoting Stewart v. United States, 119 F. 89,
94 (8th Cir. 1902)). Hansmeier asserts that the Indictment
in this case is amorphous and does not clearly set forth any
theory of fraud. To the contrary, as recounted in detail in the
Report and Recommendation, see R&R 2–4, the Indictment
is replete with factual allegations describing the scheme
allegedly deployed by Hansmeier and his co-defendant John
L. Steele.
The allegations, which must be accepted as true on a motion
to dismiss, see Steffen, 687 F.3d at 1107 n.2, can be briefly
summarized as follows. See, e.g., Ind’t ¶¶ 17–24. Beginning
in 2011, Hansmeier and Steele caused pornographic videos, as
to which sham entities that they controlled owned copyrights,
to be uploaded to a website that they knew was used for
file-sharing, BitTorrent. They then applied to federal courts
around the country for early, ex parte discovery in order
ascertain the likely identities of persons who downloaded
the files that had been uploaded at Hansmeier and Steele’s
direction. In moving for early discovery, the defendants
knowingly made or caused to be made to the courts multiple
misrepresentations and statements that were misleading by
omission in order to obtain the desired information through
court-approved subpoenas. And once they had obtained
individuals’ personal information, Hansmeier and Steele sent
letters to the individuals threatening to bring and pursue civil
copyright infringement lawsuits against these individuals, in
order to convince them to pay settlement fees quickly. These
allegations, which are pleaded in much greater detail in the
Indictment, sufficiently inform Hansmeier of the nature of the
proof the Government will seek to offer at trial.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 12 1

United States v. Hansmeier, Not Reported in Fed. Supp. (2017)

*2 Next, Hansmeier objects that the facts alleged fail to
state a legally cognizable criminal fraudulent charge. His
primary tactic is to isolate particular allegations and argue
that, viewed alone, an alleged act is not fraudulent or illegal.
The Court agrees with the Magistrate Judge’s decision to view
the allegations as a whole in evaluating the sufficiency of the
Indictment. Cf. United States v. Boykin, 794 F.3d 939, 946 (8th
Cir. 2015) (noting that “an indictment’s sufficiency should
be judged by practical, and not by technical, considerations”)
(citation and internal punctuation omitted). Hansmeier cites
no authority for the theory that every step in a scheme to
defraud must be illegal or objectionable. To the contrary,
although a scheme to defraud “must involve some sort
of fraudulent misrepresentations or omissions reasonably
calculated to deceive persons of ordinary prudence and
comprehension,” it “need not be fraudulent on its face.”
United States v. Goodman, 984 F.2d 235, 237 (8th Cir. 1993)
(citation omitted); 8th Cir. Crim. Jury Instr. § 6.18.1341
(2014); see also United States v. Bishop, 825 F.2d 1278,
1280 (8th Cir. 1987) (rejecting defendants’ characterization
of their actions as mere “hard bargaining” and finding that
the indictment alleged acts that could constitute a fraudulent
scheme within the meaning of the mail fraud statute). And as
to the conspiracy allegations, it is well established that acts in
furtherance of a conspiracy need not be illegal acts. See, e.g.,
United States v. Donahue, 539 F.2d 1131, 1136 (8th Cir.
1976) (“[A]n overt act performed in order to effect the object
of a conspiracy may be perfectly innocent in itself. Obviously,
the successful carrying out of a conspiracy to defraud by use
of the mails ... may involve the commission of a number of
acts of various kinds and having different purposes ....”).
Hansmeier further objects that the allegations cannot state a
claim based on fraud because the alleged misstatements to the
courts could not be material to the individuals’ decisions to
settle. He does not cite any binding precedent for the proposed
rule that a misrepresentation directed to a third party cannot
be material when another is harmed, and at oral argument he
conceded that Eighth Circuit case law does not recognize such
a rule. See Tr. 29:17–30:16, Dkt. No. 65. The Court concurs
in the Magistrate Judge’s rejection of that argument. See R&R
12. Similarly, Hansmeier objects that the people who paid
out settlement fees were not defrauded because they knew
that they did download the file as accused in the letters sent
by Hansmeier and his associates, and they willingly decided
to settle the case rather than face litigation. This objection
fails because, first, the Indictment alleges that Hansmeier and
his associates made misleading statements directly to these

individuals. Second, again, explicit misrepresentations made
directly to the victims are not a necessary element of mail
or wire fraud. See, e.g.,
Steffen, 687 F.3d at 1112–13. In
addition, this argument appears to assume facts not alleged in
the Indictment.
Hansmeier also objects to the Magistrate Judge’s rejection
of his theory that it violates the Constitution to prosecute
a person for “bringing meritorious litigation.” Objs. 13.
The Magistrate Judge correctly rejected Hansmeier’s broader
argument that a criminal prosecution may not be based on
civil litigation activity. See R&R 7–9. To the extent that the
Report and Recommendation did not specifically reject the
argument that such a prosecution would be unconstitutional,
such an omission was not error. Hansmeier cites several
cases establishing as a general matter the right to access
the courts. Objs. 13–14; see
Christopher v. Harbury,
536 U.S. 403, 413–15 (2002) (describing two categories of
claims for denial of access to courts); Prof.
Real Estate
Inv’rs, Inc. v. Columbia Pictures Indus., Inc., 508 U.S. 49,
56–57 (1993) (recognizing, in the antitrust context, under
the so-called Noerr–Pennington doctrine, the right to file
lawsuits that may interfere with competition as long as the
litigation is not a “sham”);
NAACP v. Button, 371 U.S.
415, 429 (1963) (recognizing the right to pursue litigation
efforts to enforce civil rights). Courts have applied the Noerr–
Pennington doctrine to bar civil claims outside the antitrust
area of law, including in cases involving civil pre-litigation
demand letters. See

Kearney v. Foley & Lardner, LLP,

590 F.3d 638, 645 (9th Cir. 2009) (discussing

Sosa v.

DIRECTV, Inc., 437 F.3d 923 (9th Cir. 2006));
Select
Comfort Corp. v. Sleep Better Store, LLC, 838 F. Supp. 2d
889, 896 (D. Minn. 2012) (collecting cases). But Hansmeier
cites no authorities for applying the doctrine in criminal cases.
The cases cited by Hansmeier do not support his contention
that allowing the prosecution of a fraudulent scheme would
be unconstitutional just because the scheme involves civil
litigation. He urges that the possibility of criminal prosecution
for aggressive civil litigation techniques could chill access
to the courts. But although criminal prosecution for perjury
in civil litigation could likewise arguably chill civil litigants’
use of the courts, he sensibly does not challenge perjury
prosecutions as unconstitutional. Cf. Nix v. Whiteside, 475
U.S. 157, 173 (1986) (“Whatever the scope of a constitutional
right to testify, it is elementary that such a right does not
extend to testifying falsely.”). Nor does he convincingly

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 13 2

United States v. Hansmeier, Not Reported in Fed. Supp. (2017)

explain why prosecuting a charge other than perjury should
alter the constitutional analysis. Further, the activities alleged
in the Indictment extend beyond aggressive litigation tactics
and include deceptive, predatory acts, including alleged fraud
on the courts. Even assuming that the Noerr–Pennington
doctrine applies in the criminal prosecution context, the Court
might find that the alleged activities place Hansmeier’s civil
litigation efforts under the sham exception to that doctrine,
thus not constitutionally protected from prosecution. See
Porous Media Corp. v. Pall Corp., 186 F.3d 1077, 1080
n.4 (8th Cir. 1999) (“Only ‘sham’ lawsuits fall outside
the Noerr–Pennington cloak of immunity, that is, ‘only
where a defendant’s resort to the courts is accompanied
or characterized by illegal and reprehensible practices such
as perjury, fraud, ... or misrepresentation, or is so clearly
baseless as to amount to an abuse of process. ...’ ”) (quoting

(8th Cir. 1984), and United States v. Pendergraft, 297 F.3d
1198 (11th Cir. 2002). He raises no new arguments concerning
the interpretation of those cases, and the Court agrees with the
analysis in the Report and Recommendation.
The Court accordingly overrules each of Hansmeier’s
objections and adopts the reasoning and recommendation of
the Report and Recommendation, as supplemented above.
Based on the files, records, and proceedings herein, and for
the reasons stated above, IT IS ORDERED THAT:

1. Defendant Paul R. Hansmeier’s
Motion to Dismiss [Dkt. No. 48] is
DENIED.

Razorback Ready Mix Concrete Co. v. Weaver, 761 F.2d
484, 487 (8th Cir.1985));

Kearney, 590 F.3d at 646–47.

*3 Last, Hansmeier objects to the Magistrate Judge’s
analysis of

I.S. Joseph Co. v. J. Lauritzen A/S, 751 F.2d 265

End of Document

All Citations
Not Reported in Fed. Supp., 2017 WL 3971874

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 14 3

Appendix C

United States v. Hansmeier, Not Reported in Fed. Supp. (2017)

2017 WL 8947193
Only the Westlaw citation is currently available.
United States District Court, D. Minnesota.
UNITED STATES of America, Plaintiff,
v.
(1) Paul R. HANSMEIER, Defendant.
Case No. 0:16–cr–00334–JNE–KMM
|
Signed 07/24/2017
Attorneys and Law Firms
Benjamin F. Langner / David J. MacLaughlin, Assistant
United States Attorneys, counsel for the government
Manvir K. Atwal, Assistant Federal Defender, counsel for Mr.
Hansmeier

REPORT AND RECOMMENDATION
Katherine Menendez, United States Magistrate Judge
*1 Paul Hansmeier has been charged in an eighteencount indictment with conspiracy to commit mail and wire
fraud, mail fraud, wire fraud, conspiracy to commit money
laundering, and conspiracy to commit and suborn perjury.
Indictment (“Ind.”), ECF No. 1. He has moved to dismiss all
charges except the last, arguing that, even if the facts alleged
in the indictment were true, they do not constitute fraud. See
Pretrial Mot. to Dismiss, ECF No. 48.
If the indictment against Mr. Hansmeier read as he described
in his briefing—and did nothing more than attempt to
criminalize an aggressive approach to civil litigation—the
Court would recommend that his motion to dismiss be
granted. However, the indictment alleges far more than
creative lawyering on the part of Mr. Hansmeier and his codefendant, John Steele. The indictment describes a fraudulent
scheme that, if proven, would violate the law and Mr.
Hansmeier’s arguments to the contrary do not persuade the
Court that the indictment is fatally flawed. Therefore, the
Court recommends denial of the motion to dismiss.
I. The Indictment
Mr. Hansmeier and Mr. Steele were charged with eighteen
criminal counts on December 14, 2016, all of which relate

to an overarching scheme to defraud. 1 For example, the
substantive mail and wire fraud counts (Counts 2 through 16)
allege specific criminal acts which are also overt acts for the
fraud conspiracy charge (Count 1). And the money laundering
conspiracy count (Count 17) charges the defendants with
conducting financial transactions with funds that they knew
to be ill-gotten gains from the fraud scheme. The heart of
Mr. Hansmeier’s motion to dismiss is his assertion that the
underlying scheme alleged is not criminal, but is instead
merely an aggressive and pioneering approach to copyright
litigation. In order to assess this argument, it is necessary to
closely examine how the government actually describes the
alleged scheme to defraud.
1

Mr. Steele has since pleaded guilty to one count
each of conspiracy to commit mail and wire fraud,
and conspiracy to commit money laundering. See
Am. Mins., ECF No. 42.

According to the indictment, between 2011 and 2014,
Mr. Hansmeier and Mr. Steele “knowingly conspire[d] ...
to devise and participate in a scheme and artifice to
defraud” and to obtain money and property by means of
false representations, and that they used mail and wire
communications to do so. Ind. ¶ 16. The alleged scheme
involved uploading pornographic movies to file-sharing
websites, obtaining the IP addresses of individuals who
downloaded those movies, improperly using civil litigation
proceedings to discover the identities of the individuals, and
then seeking settlement payments in exchange for not naming
them as defendants in a copyright infringement lawsuit.
The government claims that Mr. Hansmeier and Mr. Steele,
both attorneys, began the scheme by directing an individual
who worked for them to upload their clients’ pornographic
movies to Pirate Bay, a BitTorrent website. Ind. ¶ 20. This
direction was given with knowledge that BitTorrent sites are
used for sharing files, often to avoid paying any fees to
copyright holders of the original materials. Ind. ¶ 20. The
defendants then filed lawsuits in state and federal courts
against “John Doe” defendants identified only by the IP
addresses of the computers that downloaded the films, and
sought early ex parte discovery to obtain the names and
addresses associated with those IP addresses from Internet
Service Providers. Ind. ¶ 23. Once the individuals had been
identified, the defendants contacted them, seeking settlement
payments in exchange for not naming them in copyright
infringement lawsuits where they faced up to $150,000 in
damages per infringement and the potential embarrassment of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 15 1

United States v. Hansmeier, Not Reported in Fed. Supp. (2017)

public litigation related to pornography. Ind. ¶ 19. At no point
did the defendants disclose their role in uploading the movies
to the BitTorrent site or their direct personal financial interests
in the litigation to the courts from which they sought ex parte
early discovery or to the individuals from whom they sought
settlement payments. See Ind. ¶¶ 23–24.
*2 In November 2011, the defendants began actively
concealing their participation in the copyright infringement
lawsuits. For example, the indictment alleges that Mr.
Hansmeier and Mr. Steele caused Prenda Law to be created to
litigate the copyright cases. Ind. ¶ 25. While the law firm was
nominally owned and run by another lawyer, Mr. Hansmeier
and Mr. Steele exercised de facto control over Prenda Law’s
activities, operations, and finances. Ind. ¶ 25. The defendants
also allegedly used a number of sham entities as nominal
clients to act as strawman holders of various copyrights that
the defendants had procured. Ind. ¶ 26. These entities included
AF Holdings, Ingenuity 13, Guava, Livewire Holdings, and
LW Systems. Ind. ¶ 26. According to the indictment, each of
these was really controlled by the defendants. Ind. ¶ 26. The
indictment also asserts that the defendants never distributed
or commercially released the movies at issue, but instead had
the movies uploaded to BitTorrent sites in order to pursue
settlements based on meritless copyright infringement claims.
Ind. ¶ 27.
The indictment claims that the defendants began concealing
their conduct through these entities because courts began
blocking their efforts. Judges around the country started
placing limitations on early discovery requests in the
copyright infringement cases, preventing Mr. Hansmeier and
Mr. Steele from obtaining the real identities associated with
dozens of IP addresses at once. Ind. ¶ 29. Without this bulk
ex parte early discovery, the defendants were hamstrung
in their ability to easily demand settlement payments from
the consumers of their pornographic movies. As a result,
in the fall of 2012, the defendants allegedly began filing
cases, particularly on behalf of Guava, falsely claiming
their clients’ computer systems had been hacked. Ind. ¶
29. The defendants then moved for early discovery of
subscriber information related to IP addresses that they
claimed belonged to the potential hackers, but that were
actually associated with individuals who had downloaded the
defendants’ pornographic movies. Ind. ¶¶ 29–30. Indeed, the
government alleges that Guava had no systems to hack, and
that those cases were based on lies in their entirety. Ind.
¶ 29. The indictment also alleges that in lieu of settlement
payments, Mr. Hansmeier and Mr. Steele recruited some

of the individuals who had downloaded the pornographic
movies to serve as pretend hackers in those cases. Ind. ¶ 31.
These individuals would consent to early discovery being
served on Internet Service Providers to uncover the identities
of other downloaders who were fraudulently identified as
their “coconspirators” in the alleged hacking. Ind. ¶ 31.
Once courts started scrutinizing the defendants’ litigation
strategies, they allegedly began inducing participants in the
scheme to lie under oath and providing misleading testimony
about their actions. See, e.g., Ind. ¶¶ 32, 33(a), (b), (d), (e),
(f), (i), (j), (k).
In addition to the mail and wire fraud conspiracy count, the
indictment also alleges that the defendants engaged in five
counts of mail fraud, ten counts of wire fraud, and conspiracy
to commit money laundering. Ind. ¶¶ 36, 38, 40. These
individual instances are part of the broader fraud scheme, but
they also serve as standalone criminal counts. All told, the
indictment alleges that the conspiracy generated more than $6
million in ill-gotten gains. Ind. ¶ 34.
II. Analysis
Mr. Hansmeier has moved to dismiss most of the indictment
against him, arguing that the scheme the government
describes does not constitute fraud, and therefore all of
the counts that rely on the illegality of the scheme are
invalid. Essentially, Mr. Hansmeier argues: (1) actions taken
in civil litigation cannot form the basis of fraud charges, and
(2) the allegations in the indictment describe nothing more
than an aggressive and controversial approach to copyright
litigation. However, not only does the indictment adequately
describe an unlawful fraudulent scheme, but none of Mr.
Hansmeier’s arguments about the flaws in the indictment
withstand scrutiny.
A. Legal Standard: Federal Rule of Criminal
Procedure 12(b)(3)(B)
*3 “An indictment is sufficient if it contains all of the
essential elements of the offense charged, fairly informs the
defendant of the charges against which he must defend, and
alleges sufficient information to allow a defendant to plead a
conviction or acquittal as a bar to a subsequent prosecution.”
United States v. Huggans, 650 F.3d 1210, 1217 (8th Cir. 2011)
(citing United States v. Summers, 137 F.3d 597, 601 (8th Cir.
1998) ). And an indictment is generally sufficient “unless
it is so defective that it cannot be said, by any reasonable
construction” to charge the offense at issue.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

United States

App. 16 2

United States v. Hansmeier, Not Reported in Fed. Supp. (2017)

v. Hayes, 574 F.3d 460, 472 (8th Cir. 2009) (internal quotation
marks omitted).
“In reviewing the sufficiency of an indictment, [the Court
must] accept the government’s allegations as true, without
reference to allegations outside the indicting document.”
United States v. Farm & Home Sav. Ass’n, 932 F.2d 1256,
1259 n.3 (8th Cir. 1991). As a result, a motion to dismiss is not
the appropriate vehicle to challenge the veracity of the facts
alleged or to critique the strength of the government’s theory
of the case. The indictment need do no more than set forth
the charges and enough facts, if proven beyond a reasonable
doubt, to support them.
B. Reviewing the Indictment as a Whole
A fraudulent scheme alleged in any indictment must be
viewed as a whole. Mr. Hansmeier’s motion presents the
government’s many allegations as a list of discrete acts which
are not all, on their own, illegal in an attempt to argue that the
entire indictment fails to set forth a criminal conspiracy. See,
e.g., Def.’s Mem. at 37–48, ECF No. 49; Transcript of Motion
Hearing (“Tr.”) at 58:1–5, ECF No. 65 (defense counsel
discussing various portions of the alleged fraud scheme and
arguing that “[i]f the parts [of the indictment] are invalid, the
whole cannot be valid”). By dissecting the allegations, Mr.
Hansmeier asks the Court to look at the potential illegality
of each constituent element in isolation, rather than at the
indictment and alleged scheme as a whole. For two reasons,
this approach is flawed.
First, indictments generally must be viewed in their totality.
An “indictment should be: (1) read as a whole; (2) read to
include facts which are necessarily implied; and (3) construed
according to common sense.” United States v. Afremov, No.
06–cr–196(JRT/SRN), 2007 WL 3237630, at *15 (D. Minn.
Oct. 30, 2007); see also
United States v. Schmitz, 634
F.3d 1247, 1259 (11th Cir. 2011); United States v. Palumbo
Bros., 145 F.3d 850, 860 (7th Cir. 1998); United States v.
Buckley, 689 F.2d 893, 899 (9th Cir. 1982). This requirement
is even more important in reviewing conspiracy allegations.
“The character and effect of a conspiracy are not to be
judged by dismembering it and viewing its separate parts,
but only by looking at it as a whole.” Cont’l
Ore Co. v.
Union Carbide & Carbon Corp., 370 U.S. 690, 699 (1962)
(quotation marks omitted). And “it is well settled that acts
which are in themselves legal lose that character when they

become constituent elements of an unlawful scheme.”
at 707.

Id.

Second, because a fraud scheme is at issue in this case, the
requirement to view the allegations as a whole is even more
critical. To prove mail or wire fraud, the government must
show: (1) the defendant voluntarily and intentionally devised
or participated in a scheme to defraud another out of money,
property, or property rights; (2) the defendant did so with the
intent to defraud; and (3) the defendant used, or caused to be
used, the mail or interstate wire communication in furtherance
of some essential step in the scheme. See United States v.
Onwumere, 530 F.3d 651, 653 (8th Cir. 2008) (elements of
mail fraud); United States v. Farrington, 499 F.3d 854, 859
(8th Cir. 2007) (elements of wire fraud); see also Judicial
Comm. on Model Jury Instrs. for the 8th Cir., Manual of
Model Criminal Jury Instructions for the District Courts of
the Eighth Circuit (“Jury Instrs.”) 389–407(2014 ed. rev.). 2
2

The government has also alleged an alternative
theory of fraud, asserting that Mr. Hansmeier
devised or participated in a scheme to “obtain
money and property by means of materially
false and fraudulent pretenses, representations,
promises, and material omissions.” Ind. ¶ 16; see
also Tr. 46:6–15. The requirement to review the
scheme as a whole is the same for both theories
of fraud, and the government need prove only
one theory beyond a reasonable doubt. See, e.g.
United States v. Blumeyer, 114 F.3d 758, 769
(8th Cir. 1997).

*4 Because the mail and wire fraud statutes criminalize a
scheme that is accompanied by fraudulent intent, rather than
prohibiting individual discrete acts, the Court must focus on
the indictment broadly to determine whether it describes an
offense that satisfies these elements. “Scheme to defraud”
has been characterized as “a departure from fundamental
honesty, moral uprightness, or fair play in candid dealings
in the general life of the community.”

United States. v.

Sheahan, 31 F.3d 595, 600 (8th Cir. 1994) (quoting United
States v. Britton, 9 F.3d 708, 709 (8th Cir. 1993) (per curiam) )
(defining scheme to defraud in a bank fraud case); see also
United States v. Schmitz, 634 F.3d 1247, 1259 (11th Cir.
2011) (mentioning importance of reading indictment for mail
fraud “as a whole”); cf.
United States v. Yefsky, 994 F.2d
885, 894 (1st Cir. 1993) (indicating that “it makes sense to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 17 3

United States v. Hansmeier, Not Reported in Fed. Supp. (2017)

read a conspiracy indictment as a whole when the substantive
offenses also are the objects of the conspiracy” in the mail
United States v. Poliak, 823 F.2d 371, 372
fraud context);
(9th Cir. 1987) (discussing the importance of looking at the
entire scheme in determining which acts are sufficient to
form the basis of discrete in mail fraud context). Indeed, Mr.
Hansmeier points the Court to no authority to undermine such
a holistic review.
Against this backdrop, it would be inappropriate to focus only
on the arguably lawful actions related to creative copyright
litigation discussed in the indictment while ignoring the
allegations of perjury, misleading testimony, filing cases with
fictitious and bad faith claims, creating sham entities as
clients, recruiting sham defendants to deflect courts’ scrutiny
of early discovery requests, and lying to the courts and
victims about material facts. The Court must decline Mr.
Hansmeier’s unsupported invitation to find that each aspect
of the scheme must be independently unlawful for the scheme
to be fraudulent.
C. Fraudulent Conduct in Civil Litigation
Mr. Hansmeier’s motion to dismiss is centrally premised on
the idea that civil litigation activities cannot form the basis
of a criminal prosecution. See, e.g., Def.’s Mem. at 31, 34,
35–36. Relying largely on broad dicta in I.S. Joseph Co.
v. J. Lauritzen A/S and United States v. Pendergraft, Mr.
Hansmeier argues that using civil litigation conduct as part of
criminal charges is prohibited because doing so would chill
the public’s rightful use of the courts and discourage lawful,
though perhaps creative or aggressive, litigation tactics.
Def.’s Mem. at 31–32; see also

I.S. Joseph, 751 F.2d 265

(8th Cir. 1984);
Pendergraft, 297 F.3d 1198 (11th Cir.
2002). However, this essential premise of Mr. Hansmeier’s
motion is unsupported. Neither of the primary cases upon
which Mr. Hansmeier relies goes as far as he claims in
shielding civil litigation activities, and indeed, the relevant
case law undermines his assertions.
First, it is simply untrue that actions taken during civil
litigation cannot form the basis of criminal charges. Federal
law criminalizes any number of actions that are conducted in
relation to litigation, including most obviously committing or
suborning perjury. 18 U.S.C. §§ 1621, 1622. Even focusing on
the narrower issue of whether civil litigation can give rise to
mail and wire fraud charges, Mr. Hansmeier’s broad assertion
is misplaced. Numerous successful fraud prosecutions have

been based, in whole or in part, on conduct that occurs in
civil litigation. See, e.g.,
United States v. Eisen, 974
F.2d 246, 253–54 (2d Cir. 1992) (affirming mail fraud charges
based on conduct in a civil lawsuit);

United States v. Lee,

United
427 F.3d 881, 890–91 (11th Cir. 2005) (same);
States v. DeGeorge, 380 F.3d 1203, 1218–19 (9th Cir. 2004)
(affirming perjury and mail fraud convictions based on
conduct in a civil lawsuit); United States v. Goodstein, 883
F.2d 1362, 1372 (7th Cir. 1989) (affirming mail and wire fraud
convictions based on defendant’s misconduct in bankruptcy
proceedings);
United States v. Coven, 662 F.2d 162,
166, 175–76 (2d Cir. 1981) (affirming mail and wire fraud
convictions related to an attempt to defraud federal district
court and receiver in ongoing receivership proceedings).
*5 Indeed, the Second Circuit has squarely held that
civil litigation tactics, many of which are attributed to Mr.
Hansmeier, can give rise to fraud allegations.
Eisen,
974 F.2d at 253–54. In Eisen, attorneys and their staff were
accused of manufacturing evidence, suborning perjury, and
including misrepresentations in court filings.
Id. at
253. The Second Circuit found that the defendants’ lies,
misrepresentations, and other dishonest behavior constituted
mail fraud because they engaged in those tactics to deceive the
civil defendants into settling the cases or to secure favorable
jury verdicts at trial. Id. The fact that their actions were
connected to civil litigation did nothing to immunize them
from prosecution.
Id. at 253 (“Litigants depend on the
integrity of the conduct of participants in civil proceedings ....
It is one thing to challenge the perception, memory, or bias
of an opponent’s witnesses; it is quite another for a party’s
lawyer and a witness to concoct testimony that they know has
been wholly fabricated.”).
Second, neither of the cases on which Mr. Hansmeier
principally relies, I.S. Joseph and Pendergraft, necessitates a
different outcome. Neither decision holds that civil litigation
can never give rise to a fraud prosecution, and both are
readily distinguishable. While both opinions raise concerns
in dicta about bringing criminal charges based upon normal
civil litigation activities, neither holds that fraudulent civil
litigation tactics cannot contribute to allegations of mail or
wire fraud.
In I.S. Joseph, a civil RICO case, the Eighth Circuit addressed
whether the mere threat of filing an arguably meritless civil

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 18 4

United States v. Hansmeier, Not Reported in Fed. Supp. (2017)

lawsuit rose to the level of extortion. The claim was based on
assertions that the defendants threatened to sue the plaintiffs
for failing to pay a debt they owed to the defendants. The
Eighth Circuit held that the threat of civil litigation could not
constitute extortion, reasoning that the extortion statute did
not contemplate the sort of fear caused by a threat to sue.
I.S. Joseph, 751 F.2d at 267. Mr. Hansmeier points to the
court’s closing statement that “[r]esort to a federal criminal
statute is unnecessary” because tort law could provide a
remedy for the wrongs alleged in the civil RICO complaint.
Id. at 267–68. But, even if this observation was central to
the holding as opposed to being dicta, the concern is plainly
tied to the idea that threats to pursue civil litigation standing
alone cannot form the basis of an extortion claim, not the
much broader proposition that civil litigation activities can
never form the basis of a criminal indictment. I.S. Joseph
simply does not go as far as Mr. Hansmeier argues.
In Pendergraft, the Eleventh Circuit favorably quoted the
reasoning of I.S. Joseph in reviewing a criminal extortion
charge, but based its decision that fraud had not occurred
on something else entirely.
297 F.3d at 1205–07, 1209.
The Pendergraft court examined whether the civil litigation
activities in that case could appropriately form the basis of
a mail fraud charge, concluding that they could not because
Id. at
there was no intent to deceive the alleged victims.
1209. The Pendergraft defendants filed false affidavits in a
civil case, but all parties were fully aware of the falsity and
everyone knew that no other parties believed the statements
were truthful. Id. The court reasoned that there simply could
not have been the requisite intent to deceive under those
circumstances. Id.
Mr. Hansmeier relies on Pendergraft to support his expansive
assertion that civil litigation activities cannot form the basis of
a criminal indictment, and certainly the Pendergraft decision
includes language expressing concern over criminalizing civil
litigation conduct.
Id. at 1207 (“[W]e are troubled by
any use of [extortion charges] to punish civil litigants....
Allowing litigants to be charged with extortion would open
yet another collateral way for litigants to attack one another.
The reality is that litigating parties often accuse each other of
bad faith. The prospect of such civil cases ending as criminal
prosecutions gives us pause.” (emphasis in original) ).
However, the Eleventh Circuit has since explained its decision
and significantly narrowed its reach. Lee, 427 F.3d at 888–
91. In Lee, the court made clear that the Pendergraft decision

rested solely on the lack of intent to deceive rather than the
policy concerns discussed in the opinion.
Id. at 890. The
Lee court then affirmed mail fraud convictions where the
criminal defendants had used the trappings and processes of
civil litigation in trying to deceive a bank into discharging a
debt they owed.

Id. at 891.

*6 Taken together, these decisions demonstrate that civil
litigation activities can give rise to criminal charges.
Certainly, the case law and common sense both caution that
to support a fraud charge, such conduct must go well beyond
ordinary lawyering techniques and must be undertaken with
an intent to deceive a party into parting with something of
value. 3 But it is simply untrue that conduct such as that
alleged in this case cannot be part of a fraudulent scheme
simply because it was related to civil litigation.
3

While courts certainly have a strong interest
in ensuring that the public has access to the
judicial system, courts also have an interest in
deterring truly fraudulent litigation. Because the
allegations in this case go beyond normal litigation
tactics and the indictment sufficiently alleges a
fraudulent scheme, the Court does not share Mr.
Hansmeier’s concern that this prosecution will chill
legitimate civil litigation. Mr. Hansmeier stands
accused of manufacturing evidence, committing
and suborning perjury, and filing cases that were in
some instances entirely fraudulent, all in an attempt
to extract settlement payments from victims who
knew nothing of Mr. Hansmeier’s alleged attendant
lies and misleading actions. The indictment simply
does not raise the serious policy concerns that
criminalizing civil litigation in other contexts
might.

D. False Statements and Material Omissions in the
Indictment
Mr. Hansmeier also argues that the indictment is fatally
flawed because it does not describe definitive lies or
omissions made in the face of a certain duty to disclose.
This argument also fails for several reasons. Not only does
the indictment allege many false statements, but it is beyond
dispute that a fraud scheme can be charged even absent an
allegation of specific falsehoods.
First, the indictment alleges several outright false statements
as part of the fraudulent scheme. As the Second Circuit

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 19 5

United States v. Hansmeier, Not Reported in Fed. Supp. (2017)

discussed in Eisen, manufacturing evidence and committing
or suborning perjury in civil cases can readily give rise
to fraud charges.
974 F.2d at 253–54. Here, Mr.
Hansmeier stands accused of precisely that conduct. The
indictment alleges, for instance, that Mr. Hansmeier falsely
claimed his clients were hacked when they had no computer
systems that could have been hacked, Ind. ¶¶ 29, 33(b); that
he filed an intentionally misleading declaration “signed under
penalty of perjury” claiming he had never uploaded any of
his clients’ copyrighted material to a BitTorrent file-sharing
website, Ind. ¶ 33(k); that he caused others to lie about his
relationship to his sham clients, Ind.¶ 33(a), (i), (j); and that
he manufactured strawman defendants to smooth the way on
early discovery requests, Ind. ¶ 31. And unlike Pendergraft,
the victims of Mr. Hansmeier’s lies and misrepresentations
had no way of knowing they were being lied to; they had
no involvement in bringing the civil lawsuits and there had
been no discovery that might have made them aware of the
falsity of the allegations in the civil cases. The whole scheme
was geared toward extracting settlement payments, and the
cases were usually dropped when parties sought to litigate
the claims. Ind. ¶ 17. Mr. Hansmeier overlooks these clear
allegations of lies and falsehoods in an effort to characterize
the indictment as criminalizing mere omissions, but the Court
cannot join in such a narrow focus.
Second, even if Mr. Hansmeier were right in asserting that
the indictment lacks sufficient allegations of outright lies
or false statements, “a scheme to defraud does not require
false representations.”
United States v. Steffen, 687 F.3d
1104, 1111 (8th Cir. 2012). The indictment asserts that Mr.
Hansmeier engaged in both a scheme to defraud and a
scheme to “obtain money and property by means of materially
false and fraudulent pretenses, representations, promises, and
material omissions.” Ind. ¶ 16. The former does not require
allegations of false representations, though, as discussed, the
indictment clearly contains them.
*7 Third, the indictment includes allegations of other
behavior throughout the scheme to defraud that may not
constitute outright falsehoods, but that nonetheless supports
the fraudulent scheme. This conduct includes causing Mr.
Hansmeier’s clients’ pornographic movies to be uploaded
to Pirate Bay in a way that undermined the validity of
any eventual lawsuit, but asserting that the subsequent
downloads were done “without authorization,” Ind. ¶¶ 20,
22; misrepresenting that he intended to prosecute copyright
infringement cases against the “John Doe” defendants once

their identities were discovered, Ind. ¶ 17; establishing
entities in other individuals’ names to serve as “clients”
in various civil lawsuits while retaining control over those
entities’ operations and finances, Ind. ¶¶ 13–14, 25, 26(a)-(d);
and failing to share any of that information with courts while
seeking court orders that ultimately allowed the identification
of targets for settlement, Ind. ¶¶ 17, 22–24. The Court need
not decide whether Mr. Hansmeier had a clearly established
duty to disclose his role in uploading the movies to Pirate Bay
or his personal stake in the outcome of the civil litigation,
nor whether these allegations standing alone would support
criminal charges. 4 At a minimum, these alleged activities
are intrinsically intertwined with the fraud scheme and their
non-disclosure can reasonably be understood as evidencing
an intent to defraud.
4

The parties spend significant space in their
briefing debating the question of whether rules of
professional conduct governing lawyers on their
own can create a duty to disclose information such
that an ethics violation itself could constitute a
material omission for criminal fraud purposes. See,
e.g., Def.’s Mem. at 42–48; Resp. at 21–24; Reply
at 6–7. The Court need not answer this interesting
question in resolving the motion to dismiss because
of the ample allegations of fraudulent conduct that
arise from actions unrelated to Mr. Hansmeier’s
ethical obligations.

E. Mr. Hansmeier’s Other Arguments
Mr. Hansmeier briefly raises two other arguments that merit
discussion. First, he argues that he has been punished
enough for his actions through the civil sanctions imposed
by courts around the country and the suspension of his
license to practice law, and therefore the charges should be
dismissed. Def.’s Mem. at 51. However, the availability, and
even imposition, of lesser non-criminal sanctions does not
undermine the validity of the allegations in the indictment.
See Afremov, 2007 WL 3237630, at *16. Our adversarial
system vests the government, not the Court, with the
authority to determine whether to bring criminal charges
when civil remedies are also available. See, e.g.,
Marshall
v. Jerrico, Inc., 446 U.S. 238, 248 (1980) (indicating that
prosecutorial discretion permits prosecutors “to be zealous in
their enforcement of the law” and to determine what sort of
available sanctions to pursue). Mr. Hansmeier’s suggestion
that the Court should express disapproval regarding the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 20 6

United States v. Hansmeier, Not Reported in Fed. Supp. (2017)

government’s decision to prosecute by dismissing the
indictment is without merit.
Mr. Hansmeier’s also argued in passing in his brief that a lie
or material omission to one party that induces another party
to part with her money or property cannot constitute fraud.
This argument, though superficially appealing, is contrary
Blumeyer, 114
to controlling Eighth Circuit precedent.
F.3d at 768 (indicating that false representations made to
a regulatory agency as part of a scheme to obtain money
or property from other victims can constitute fraud); see

Mr. Hansmeier’s motion to dismiss purports to raise
interesting questions about how far the government can
go to criminalize aggressive civil litigation tactics. But the
indictment against him alleges clearly fraudulent behavior
that goes far beyond creative lawyering, so the novel
questions he has raised need not be answered in this case
at this stage. Ultimately, the indictment contains sufficient
allegations to establish conspiracy to commit mail and wire
fraud, mail fraud, wire fraud, and money laundering if those
allegations are proven beyond a reasonable doubt at trial.

also
Eisen, 974 F.2d at 253 (indicating false evidence
offered during civil litigation “works a fraud not only on the
jury but on the opposing party as well”). The fact that many
of the lies and material misrepresentations mentioned in the
indictment were made to the courts rather than solely and
directly to the victims does not undermine the sufficiency of
the allegations.

*8 Based on the foregoing, the Court HEREBY
RECOMMENDS that Mr. Hansmeier’s Pretrial Motion to
Dismiss, ECF No. 48, be DENIED.

III. Conclusion

Not Reported in Fed. Supp., 2017 WL 8947193

End of Document

Recommendation

All Citations

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 21 7

Appendix D
§ 1341

TITLE 18—CRIMES AND CRIMINAL PROCEDURE

(A) transmission of any advertisement, list
of prizes, or other information concerning
the savings promotion raffle;
(B) offering, facilitation, and acceptance of
deposits, withdrawals, or other transactions
in connection with the savings promotion
raffle;
(C) transmission of any information relating to the savings promotion raffle, including account balance and transaction information; and
(D) deposit or transmission of prizes
awarded in the savings promotion raffle as
well as notification or publication thereof.
(b) DEFINITIONS.—In this section—
(1) the term ‘‘insured credit union’’ shall
have the meaning given the term in section
101 of the Federal Credit Union Act (12 U.S.C.
1752);
(2) the term ‘‘insured depository institution’’
shall have the meaning given the term in section 3 of the Federal Deposit Insurance Act (12
U.S.C. 1813); and
(3) the term ‘‘savings promotion raffle’’
means a contest in which the sole consideration required for a chance of winning designated prizes is obtained by the deposit of a
specified amount of money in a savings account or other savings program, where each
ticket or entry has an equal chance of being
drawn, such contest being subject to regulations that may from time to time be promulgated by the appropriate prudential regulator
(as defined in section 1002 of the Consumer Financial Protection Act of 2010 (12 U.S.C. 5481)).
(Added Pub. L. 113–251, § 4(a), Dec. 18, 2014, 128
Stat. 2890.)
CHAPTER 63—MAIL FRAUD AND OTHER
FRAUD OFFENSES
Sec.

1341.
1342.
1343.
1344.
1345.
1346.
1347.
1348.
1349.
1350.
1351.

Frauds and swindles.
Fictitious name or address.
Fraud by wire, radio, or television.
Bank fraud.
Injunctions against fraud.
Definition of ‘‘scheme or artifice to defraud’’.
Health care fraud.
Securities and commodities fraud.
Attempt and conspiracy.
Failure of corporate officers to certify financial reports.
Fraud in foreign labor contracting.
AMENDMENTS

2009—Pub. L. 111–21, § 2(e)(2), May 20, 2009, 123 Stat.
1618, inserted ‘‘and commodities’’ after ‘‘Securities’’ in
item 1348.
2008—Pub. L. 110–457, title II, § 222(e)(1), (3), Dec. 23,
2008, 122 Stat. 5070, 5071, inserted ‘‘AND OTHER FRAUD
OFFENSES’’ after ‘‘MAIL FRAUD’’ in chapter heading
and added item 1351.
2002—Pub. L. 107–204, title VIII, § 807(b), title IX,
§§ 902(b), 906(b), July 30, 2002, 116 Stat. 804–806, added
items 1348 to 1350.
1996—Pub. L. 104–191, title II, § 242(a)(2), Aug. 21, 1996,
110 Stat. 2016, added item 1347.
1990—Pub. L. 101–647, title XXXV, § 3541, Nov. 29, 1990,
104 Stat. 4925, substituted ‘‘or’’ for ‘‘and’’ in item 1342.
1988—Pub. L. 100–690, title VII, § 7603(b), Nov. 18, 1988,
102 Stat. 4508, added item 1346.
1984—Pub. L. 98–473, title II, §§ 1108(b), 1205(b), Oct. 12,
1984, 98 Stat. 2147, 2153, added items 1344 and 1345.

Page 342

1952—Act July 16, 1952, ch. 879, § 18(b), 66 Stat. 722,
added item 1343.

§ 1341. Frauds and swindles
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for obtaining money or property by means of false or
fraudulent pretenses, representations, or promises, or to sell, dispose of, loan, exchange, alter,
give away, distribute, supply, or furnish or procure for unlawful use any counterfeit or spurious coin, obligation, security, or other article,
or anything represented to be or intimated or
held out to be such counterfeit or spurious article, for the purpose of executing such scheme or
artifice or attempting so to do, places in any
post office or authorized depository for mail
matter, any matter or thing whatever to be sent
or delivered by the Postal Service, or deposits or
causes to be deposited any matter or thing
whatever to be sent or delivered by any private
or commercial interstate carrier, or takes or receives therefrom, any such matter or thing, or
knowingly causes to be delivered by mail or
such carrier according to the direction thereon,
or at the place at which it is directed to be delivered by the person to whom it is addressed,
any such matter or thing, shall be fined under
this title or imprisoned not more than 20 years,
or both. If the violation occurs in relation to, or
involving any benefit authorized, transported,
transmitted, transferred, disbursed, or paid in
connection with, a presidentially declared major
disaster or emergency (as those terms are defined in section 102 of the Robert T. Stafford
Disaster Relief and Emergency Assistance Act
(42 U.S.C. 5122)), or affects a financial institution, such person shall be fined not more than
$1,000,000 or imprisoned not more than 30 years,
or both.
(June 25, 1948, ch. 645, 62 Stat. 763; May 24, 1949,
ch. 139, § 34, 63 Stat. 94; Pub. L. 91–375, § (6)(j)(11),
Aug. 12, 1970, 84 Stat. 778; Pub. L. 101–73, title IX,
§ 961(i), Aug. 9, 1989, 103 Stat. 500; Pub. L. 101–647,
title XXV, § 2504(h), Nov. 29, 1990, 104 Stat. 4861;
Pub. L. 103–322, title XXV, § 250006, title XXXIII,
§ 330016(1)(H), Sept. 13, 1994, 108 Stat. 2087, 2147;
Pub. L. 107–204, title IX, § 903(a), July 30, 2002, 116
Stat. 805; Pub. L. 110–179, § 4, Jan. 7, 2008, 121
Stat. 2557.)
HISTORICAL AND REVISION NOTES
1948 ACT
Based on title 18, U.S.C., 1940 ed., § 338 (Mar. 4, 1909,
ch. 321, § 215, 35 Stat. 1130).
The obsolete argot of the underworld was deleted as
suggested by Hon. Emerich B. Freed, United States district judge, in a paper read before the 1944 Judicial Conference for the sixth circuit in which he said:
A brief reference to § 1341, which proposes to reenact
the present section covering the use of the mails to defraud. This section is almost a page in length, is involved, and contains a great deal of superfluous language, including such terms as ‘‘sawdust swindle, green
articles, green coin, green goods and green cigars.’’
This section could be greatly simplified, and nowmeaningless language eliminated.
The other surplusage was likewise eliminated and the
section simplified without change of meaning.
A reference to causing to be placed any letter, etc. in
any post office, or station thereof, etc. was omitted as
unnecessary because of definition of ‘‘principal’’ in section 2 of this title.

App. 22

Page 343

TITLE 18—CRIMES AND CRIMINAL PROCEDURE
1949 ACT

This section [section 34] corrects a typographical
error in section 1341 of title 18, U.S.C.
AMENDMENTS
2008—Pub. L. 110–179 inserted ‘‘occurs in relation to,
or involving any benefit authorized, transported, transmitted, transferred, disbursed, or paid in connection
with, a presidentially declared major disaster or emergency (as those terms are defined in section 102 of the
Robert T. Stafford Disaster Relief and Emergency Assistance Act (42 U.S.C. 5122)), or’’ after ‘‘If the violation’’.
2002—Pub. L. 107–204 substituted ‘‘20 years’’ for ‘‘five
years’’.
1994—Pub. L. 103–322, § 330016(1)(H), substituted ‘‘fined
under this title’’ for ‘‘fined not more than $1,000’’ after
‘‘thing, shall be’’.
Pub. L. 103–322, § 250006, inserted ‘‘or deposits or
causes to be deposited any matter or thing whatever to
be sent or delivered by any private or commercial
interstate carrier,’’ after ‘‘Postal Service,’’ and ‘‘or
such carrier’’ after ‘‘causes to be delivered by mail’’.
1990—Pub. L. 101–647 substituted ‘‘30’’ for ‘‘20’’ before
‘‘years’’.
1989—Pub. L. 101–73 inserted at end ‘‘If the violation
affects a financial institution, such person shall be
fined not more than $1,000,000 or imprisoned not more
than 20 years, or both.’’
1970—Pub. L. 91–375 substituted ‘‘Postal Service’’ for
‘‘Post Office Department’’.
1949—Act May 24, 1949, substituted ‘‘of’’ for ‘‘or’’ after
‘‘dispose’’.
EFFECTIVE DATE OF 1970 AMENDMENT
Amendment by Pub. L. 91–375 effective within 1 year
after Aug. 12, 1970, on date established therefor by
Board of Governors of United States Postal Service and
published by it in Federal Register, see section 15(a) of
Pub. L. 91–375, set out as an Effective Date note preceding section 101 of Title 39, Postal Service.
SHORT TITLE OF 2002 AMENDMENT
Pub. L. 107–204, title IX, § 901, July 30, 2002, 116 Stat.
804, provided that: ‘‘This title [enacting sections 1349
and 1350 of this title, amending this section, section
1343 of this title, and section 1131 of Title 29, Labor, and
enacting provisions set out as notes under section 994
of Title 28, Judiciary and Judicial Procedure] may be
cited as the ‘White-Collar Crime Penalty Enhancement
Act of 2002’.’’

§ 1342. Fictitious name or address
Whoever, for the purpose of conducting, promoting, or carrying on by means of the Postal
Service, any scheme or device mentioned in section 1341 of this title or any other unlawful business, uses or assumes, or requests to be addressed by, any fictitious, false, or assumed
title, name, or address or name other than his
own proper name, or takes or receives from any
post office or authorized depository of mail matter, any letter, postal card, package, or other
mail matter addressed to any such fictitious,
false, or assumed title, name, or address, or
name other than his own proper name, shall be
fined under this title or imprisoned not more
than five years, or both.
(June 25, 1948, ch. 645, 62 Stat. 763; Pub. L. 91–375,
§ 6(j)(12), Aug. 12, 1970, 84 Stat. 778; Pub. L.
103–322, title XXXIII, § 330016(1)(H), Sept. 13, 1994,
108 Stat. 2147.)
HISTORICAL AND REVISION NOTES
Based on title 18, U.S.C., 1940 ed., § 339 (Mar. 4, 1909,
ch. 321, § 216, 35 Stat. 1131).

§ 1343

The punishment language used in section 1341 of this
title was substituted in lieu of the reference to it in
this section.
Minor changes in phraseology were made.
AMENDMENTS
1994—Pub. L. 103–322 substituted ‘‘fined under this
title’’ for ‘‘fined not more than $1,000’’.
1970—Pub. L. 91–375 substituted ‘‘Postal Service’’ for
‘‘Post Office Department of the United States’’.
EFFECTIVE DATE OF 1970 AMENDMENT
Amendment by Pub. L. 91–375 effective within 1 year
after Aug. 12, 1970, on date established therefor by
Board of Governors of United States Postal Service and
published by it in Federal Register, see section 15(a) of
Pub. L. 91–375, set out as an Effective Date note preceding section 101 of Title 39, Postal Service.

§ 1343. Fraud by wire, radio, or television
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for obtaining money or property by means of false or
fraudulent pretenses, representations, or promises, transmits or causes to be transmitted by
means of wire, radio, or television communication in interstate or foreign commerce, any
writings, signs, signals, pictures, or sounds for
the purpose of executing such scheme or artifice, shall be fined under this title or imprisoned
not more than 20 years, or both. If the violation
occurs in relation to, or involving any benefit
authorized, transported, transmitted, transferred, disbursed, or paid in connection with, a
presidentially declared major disaster or emergency (as those terms are defined in section 102
of the Robert T. Stafford Disaster Relief and
Emergency Assistance Act (42 U.S.C. 5122)), or
affects a financial institution, such person shall
be fined not more than $1,000,000 or imprisoned
not more than 30 years, or both.
(Added July 16, 1952, ch. 879, § 18(a), 66 Stat. 722;
amended July 11, 1956, ch. 561, 70 Stat. 523; Pub.
L. 101–73, title IX, § 961(j), Aug. 9, 1989, 103 Stat.
500; Pub. L. 101–647, title XXV, § 2504(i), Nov. 29,
1990, 104 Stat. 4861; Pub. L. 103–322, title XXXIII,
§ 330016(1)(H), Sept. 13, 1994, 108 Stat. 2147; Pub.
L. 107–204, title IX, § 903(b), July 30, 2002, 116
Stat. 805; Pub. L. 110–179, § 3, Jan. 7, 2008, 121
Stat. 2557.)
AMENDMENTS
2008—Pub. L. 110–179 inserted ‘‘occurs in relation to,
or involving any benefit authorized, transported, transmitted, transferred, disbursed, or paid in connection
with, a presidentially declared major disaster or emergency (as those terms are defined in section 102 of the
Robert T. Stafford Disaster Relief and Emergency Assistance Act (42 U.S.C. 5122)), or’’ after ‘‘If the violation’’.
2002—Pub. L. 107–204 substituted ‘‘20 years’’ for ‘‘five
years’’.
1994—Pub. L. 103–322 substituted ‘‘fined under this
title’’ for ‘‘fined not more than $1,000’’.
1990—Pub. L. 101–647 substituted ‘‘30’’ for ‘‘20’’ before
‘‘years’’.
1989—Pub. L. 101–73 inserted at end ‘‘If the violation
affects a financial institution, such person shall be
fined not more than $1,000,000 or imprisoned not more
than 20 years, or both.’’
1956—Act July 11, 1956, substituted ‘‘transmitted by
means of wire, radio, or television communication in
interstate or foreign commerce’’ for ‘‘transmitted by
means of interstate wire, radio, or television communication’’.

App. 23

